No. __________

In the

Supreme Court of the United States
JEREMIAS ROBERTSON, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

Petition for Writ of Certiorari

STEPHEN P. MCCUE
Federal Public Defender
Margaret A. Katze*
Assistant Federal Public Defender
111 Lomas Blvd., NW, Suite 501
Albuquerque, New Mexico 87102
Telephone: (505) 346-2489
Facsimile: (505) 346-2494
Attorneys for the Petitioner
* Counsel of Record

Questions Presented For Review
1. In United States v. Mitchell, 526 U.S. 314, 330 (1999), this Court held
that a sentencing court may not draw adverse factual inferences from silence.
Here, during sentencing deliberations, the court pointedly expressed surprise
that it had not heard Robertson contradict, under oath, the testimony that he
assaulted a police officer. A Tenth Circuit panel split on the comment’s
significance: a majority held it was ambiguous - the court never said it
considered his silence unfavorably. The dissent argued that making - and
twice repeating - the comment meant the court not only considered
Robertson’s silence but found it compelling.
When a court focuses on a defendant’s silence during its sentencing
deliberations, does it transgress the constitutional right against selfincrimination?
2. When a sentencing court’s fact-finding establishes an uncharged offense
that exponentially increases the calculated guideline sentencing range for the
actual offense of conviction, should a clear and convincing, rather than a
preponderance, standard apply to such a fact determination in deference to
the constitutional rights to due process and a jury trial?

i

Related Proceedings
United States Court of Appeals for the Tenth Circuit
United States v. Jeremias Robertson, Case No. 18-2165
Opinion Entered: January 6, 2020
Order Denying Petition for Panel Rehearing/Rehearing En Banc Entered:
February 18, 2020
Mandate Entered: February 26, 2020

United States District Court for the District of New Mexico
United States v. Jeremias Robertson, Case No. 17-CR-2573-JAP
Judgment Entered: November 1, 2018

ii

Table of Contents
Page
Questions Presented for Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Related Proceedings. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
Opinions Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Pertinent Constitutional Provisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. District Court Proceedings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
1. The probation office recommends an imprisonment range almost
three times the range authorized for the offense to which Robertson
pleaded guilty . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
2. The officer’s testimony that Robertson assaulted him was inherently
inconsistent and uncorroborated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
3. The sentencing transcript proves the district court factored
Robertson’s silence into its sentencing deliberation . . . . . . . . . . . . . . 8
B. Tenth Circuit Proceedings. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
1. In her dissent, Judge Briscoe applied Mitchell to the facts and
concluded the district court violated Robertson’s Fifth Amendment
rights by factoring his silence into its sentencing deliberations . . . 10
Reasons for Granting the Writ on the First Question Presented . . . . . . . . . . 12
A. In her dissent, Judge Briscoe pinpointed the district court remarks that
prove Robertson’s silence was a factor in his sentence; the majority
concluded otherwise because “it omit[ted] critical portions of the
sentencing transcript.”. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Reasons for Granting the Writ on the Second Question Presented . . . . . . . . 19
A. Given the circuit split, the Court should find when sentencing
enhancements have a disproportionate effect on the imprisonment
range of the convicted offense, a higher proof standard best eliminates
the subsequent threats to a defendant’s rights and liberty during
sentencing deliberations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
iii

Table of Contents (continued)
Page
1. The effect of the risk of error and the interest at stake determine the
level of proof required . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
2. When a guideline enhancement has a disproportionate impact on the
recommended prison range of the offense of conviction, a
preponderance of the evidence standard does not adequately protect
due process rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
3. When only a judge’s fact-finding makes a sentence substantively
reasonable, the Fifth and Sixth Amendments dictate the degree of
proof required for the fact to constitutionally affect the prison term. 28
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
Appendix:
United States v. Robertson
Tenth Circuit’s Published Decision, 946 F.3d 1168 (10th Cir. January 6,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
United States v. Robertson
Tenth Circuit’s Order Denying Petition for Panel Rehearing/Rehearing En
Banc (February 18, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10a

iv

Table of Authorities
Page
Cases
Addington v. Texas
441 U.S. 418 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22-24, 29, 32, 33
Apprendi v. New Jersey
530 U.S. 466 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Blakely v. Washington
542 U.S. 296 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28, 32
Chaunt v. United States
364 U.S. 350 (1960) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Cunningham v. California
549 U.S. 270 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28, 29
Freeman v. United States
564 U.S. 522 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Gall v. United States
552 U.S. 38 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
In re Winship
397 U.S. 358 (1970) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22-24
Jones v. United States
574 U.S. 948 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21, 29, 30
Lee v. Crouse
451 F.3d 598 (10th Cir. 2006). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Masson v. New Yorker Magazine, Inc.
501 U.S. 496 (1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Mathews v. Eldridge
424 U.S. 319 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Morrissey v. Brewer
408 U.S. 471 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Marlowe v. United States
555 U.S. 963 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Rita v. United States
551 U.S. 338 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

v

Table of Authorities (continued)
Page
Cases
Rosales-Mireles v. United States
138 S. Ct. 1897 (2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Santosky v. Kramer
455 U.S. 745 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 24, 30-33
Speiser v. Randall
357 U.S. 513 (1958) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Townsend v. Burke
334 U.S. 736 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
United States v. Booker
543 U.S. 220 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30, 33
United States v. Constantine
263 F.3d 1122 (10th Cir. 2001). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
United States v. Gardenhire
784 F.3d 1277 (9th Cir. 2015). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
United States v. Hopper
177 F.3d 824 (9th Cir. 1999). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Hymas
780 F.3d 1285 (9th Cir. 2015). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Jones
744 F.3d 1362 (D.C. Cir. 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
United States v. Jordan
256 F.3d 922 (9th Cir. 2001). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23, 25, 27
United States v. Mezas de Jesus
217 F.3d 638 (9th Cir. 2000). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 27
United States v. Mitchell
526 U.S. 314 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 13-17
United States v. Munoz
233 F.3d 1117 (9th Cir.2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Olsen
519 F.3d 1096 (10th Cir. 2008). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

vi

Table of Authorities (continued)
Page
Cases
United States v. Ray
704 F.3d 1307 (10th Cir. 2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
United States v. Robertson
946 F.3d 1168 (10th Cir. 2020). . . . . . . . . . . . . . . 1, 10, 11, 14-17, 19, 20, 22
United States v. Staten
466 F.3d 708 (9th Cir. 2006). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Townley
929 F.2d 365 (8th Cir. 1991). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Tucker
404 U.S. 443 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Washington v. Harper
494 U.S. 210 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Woodby v. I.N.S.
385 U.S. 276 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 31
Constitution
U.S. CONSTITUTION, Amendment V. . . . . . . . . . . . . . . . . . . . 2, 10, 13, 21, 31
U.S. CONSTITUTION, Amendment VI . . . . . . . . . . . . . 2, 11, 19, 21, 28, 29, 31
Federal Statutes
18 U.S.C. § 922(g)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
26 U.S.C. § 7454(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
United States Sentencing Guidelines
USSG § 2K2.1(a)(4)(A). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
USSG § 2K2.1(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
USSG § 3A1.2(c)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Rules
Supreme Court Rule 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
vii

Table of Authorities (continued)
Page
Other Authority
Black’s Law Dictionary (7th ed. 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 21
W. Blackstone, Commentaries on the Laws of England (1769) . . . . . . . . . . . . 33

viii

In the

Supreme Court of the United States
JEREMIAS ROBERTSON, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
Petition for Writ of Certiorari
Jeremias Robertson petitions for a writ of certiorari to review the
judgment and opinion of the United States Court of Appeals for the Tenth
Circuit in his case.

Opinions Below
The Tenth Circuit’s decision in United States v. Robertson, Case No. 182165, affirming the district court’s judgment and sentence, was published and
is reported at 946 F.3d 1168 (10th Cir. 2020).1 Robertson filed a petition for
panel rehearing and rehearing en banc which the court denied.2 The district

1

App. 1a-9a. “App.” refers to the attached appendix. ‘PSR’ refers to the probation

office’s presentence report. The record on appeal contained four volumes.
Robertson refers to the documents and pleadings in those volumes as Vol. __
followed by the bates number on the bottom right of the page (e.g. Vol. I at 89).
Robertson refers to the transcript from the sentencing hearing held on August 14,
2018, as ‘S.Tr.’ followed by the page number.
2

App. 10a.

1

court did not issue a written order or memorandum opinion addressing the
questions presented in this petition.

Jurisdiction
On January 6, 2020, the Tenth Circuit affirmed the district court’s
judgment and sentence.3 On February 18, 2020, the circuit court denied
Robertson’s petition for panel rehearing and rehearing en banc. This Court
has jurisdiction pursuant to 28 U.S.C. § 1254(1). According to this Court’s
Order from March 19, 2020, this petition is timely if filed on or before July 17,
2020.

Pertinent Constitutional Provisions
The Fifth Amendment to the United States Constitution states:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal case
to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use,
without just compensation.
The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by

3

App. 1a-9a.

2

law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defence.
**********

3

Statement of the Case
A. District Court Proceedings
Robertson pleaded guilty to an indictment which charged him with
violating 18 U.S.C. § 922(g)(1) by unlawfully possessing a firearm and
ammunition after he had been convicted of a felony.
1. The probation office recommends an imprisonment range
almost three times the range authorized for the offense to
which Robertson pleaded guilty.
In the presentence report (PSR) the probation office said the base offense
level was 20. PSR ¶ 12 (citing United States Sentencing Guidelines (USSG)
§ 2K2.1(a)(4)(A)). It added 4 levels by applying USSG § 2K2.1(b)(6) because it
believed Robertson assaulted a police officer while he possessed the firearm.
PSR ¶ 13. It wrote, Robertson “pointed the firearm . . . toward the officer”,
which under New Mexico law “constitutes [an] aggravated assault with [a]
deadly weapon.” Id. The office also increased the offense level by 6, using
USSG § 3A1.2(c)(1), the official victim enhancement. It noted that Robertson
assaulted the officer in a “manner creating a substantial risk of serious bodily
injury.” PSR ¶ 14. The adjusted offense level was 30.
That calculation had a disproportionate impact on the imprisonment range
relative to the offense of conviction: for the offense to which Robertson
pleaded guilty, felon in possession of a firearm, the court could impose a
prison term between 46 to 57 months, but that range ballooned beyond the
statutory maximum term to 120 to 150 months after adding the
enhancements. PSR ¶ 62.
Because the parties were at odds over the enhancements recommended by
the probation office, the district court held an evidentiary hearing. The
officer who confronted and then shot Robertson testified for the government.
4

So did the officer who investigated the shooting. An eyewitness to the
encounter testified on behalf of Robertson.
2. The officer’s testimony that Robertson assaulted him was
inherently inconsistent and uncorroborated.
At approximately 5:30 on an August evening in 2017, Robertson was
walking south on First Street in downtown Albuquerque. He was wearing a
backpack and listening to music on his phone which he was holding in his left
hand. S.Tr. 116. He did not have a gun in his hand. Id.
Robertson crossed First Street and then headed northeast through a dirt
parking lot. S.Tr. 13, 116. An Albuquerque police officer who had been
notified of a 911 call had stopped his patrol car at the north end of that street.
S.Tr. 12. The caller reported that an African American male in the downtown
area, near Second Street and Lomas Boulevard, had been pointing a gun at
random citizens. Id. 11. When the officer saw Robertson crossing the street
he “accelerated heavily towards” him. S.Tr. 13. As he sped off, the officer had
his high powered rifle in hand. Id. 46.
The officer stopped in the middle of the street, leapt out of his car with his
rifle “shouldered,” left his door open and told a man loading a vehicle onto the
bed of a “large tow truck,” “watch my car.” S.Tr. 14-15. He did not follow
Robertson into the parking lot but used the truck’s cover while he tracked
him. Id. After he rounded the front of the truck, he still had the cover of a
car in the lot. S.Tr. 17. When he saw Robertson, he crouched behind that car
and shouted twice “in quick succession: ‘Show me your hands, show me your
hands.’” S.Tr. 15. The officer gave this command although when he pulled up
on Robertson, “he did see him have something dark in his right hand . . .
there was a high likelihood it was a gun.” S.Tr. 16.
5

The officer said after directing Robertson to show him his hands and while
pointing his rifle at him, Robertson turned slightly to the left and over his left
shoulder pointed at the officer a “small caliber handgun” which he held in his
right hand. S.Tr. 16. Robertson then walked away and the officer repeated
“with great urgency, ‘show me your hands, show me your hands.’” Id. 17.
Robertson again “looked over his left shoulder back at [the officer] looking
into the sun with the handgun” pointed at the officer over his left shoulder.
Id. 18-19. Notably, while he was shouting at Robertson, the officer heard
Robertson pleading loudly, “don’t shoot me, I didn’t do anything wrong.” S.Tr.
49. The officer then “fired a single precise round” which hit Robertson
between his armpit and left nipple. Id. Because of the “organic tissue
damage . . . a 64-grain .223 round” will do, the officer’s shot “was effective.”
S.Tr. 19-20. Robertson fell face down to the ground, “unresponsive.” Id. 21.
A handgun was found two to three feet from where Robertson landed. Id. 57.
The officer’s body camera started recording during his drive down First
Street. However, because he had it pointing towards the ground, it
corroborated none of what he said Robertson did with the handgun. S.Tr.
147.
Before the officer saw Robertson cross the street, Johnny Pinson, a
bystander, watched him walk past on the sidewalk. He saw Robertson cross
the street and traverse the parking lot. Pinson noted that he did not see him
carrying a gun in either hand. S.Tr. 116. He said Robertson appeared to be
listening to music from the device he was holding in his hand. Id.
After Robertson crossed the street, Pinson saw the officer charge down the
road and jump out of his car with “his big old rifle.” S.Tr. 117. He heard the
officer “holler at that fellow in the parking lot, ‘show me your hands.’” Id.
6

Pinson heard Robertson say, “I haven’t done anything . . . I’m only 18, don’t
shoot me.” S.Tr. 117-18. Then he heard, “bam.” Id. Pinson insisted he had a
clear view of the confrontation. When the officer shouted “show me your
hands,” Pinson saw Robertson with his hands open and up to his side,
gesturing to emphasize his entreaty, “I haven’t done anything.” S.Tr. 117.
He did not see a gun in his hands. Id. 118.
The officer’s proclivity for violent confrontation was detailed in his
disciplinary history. He was removed from Special Weapons and Tactics
(SWAT) because of a bean bag incident. S.Tr. 59. The officer fired three
‘bean bag’ shots to a man’s head. Unknown to the officer, the man was
already dead, but if he had not been, those shots would have killed him.
Id. 60. In addition to his removal, the officer was given a 32 hour suspension
and a letter of reprimand. Id. 59.
In another confrontation, the officer grabbed a man’s arm and pointed his
firearm at him. This man had simply reported domestic violence involving
his neighbor. S.Tr. 60. For that improper use of force, the officer was given a
verbal reprimand and then sued civilly. Id. 60-61. He also was disciplined
for kicking, punching and then striking a man in the face with his rifle.
S.Tr. 64.
The officer was also combative with his colleagues. He was suspended for
40 hours and sent to anger management counseling for assaulting a police
lieutenant. S.Tr. 61-63. He was suspended for another 40 hours because he
pointed his gun at a coworker’s chest and said, “Check it out, God’s gun.”
S.Tr. 68.
Pertinent to his actions here, the officer was reprimanded for not using his
“on-body recording device” when he shot at a car he was pursuing. Id. 67.
7

3. The sentencing transcript proves the district court factored
Robertson’s silence into its sentencing deliberation.
At the end of the hearing, the district court voiced its concern over the
officer’s turbulent background. Combined with doubts about the officer’s
testimony, the court said, it was “very disturbed about the sequence of events
occurring so rapidly. I have some serious questions about him, frankly.”
ROA, Vol. IV at 154. However, it then added, “But I think his testimony is
supported in this case. I’m a little surprised that I didn’t hear from the main
player who would tell us that, “‘No, I did not point a gun at Officer Arias.’ I
didn’t hear that testimony.” Id. at 154-55. When defense counsel countered
that the parties were engaged in a “contested sentencing hearing because
[Robertson] is saying, as we said throughout the objections in the sentencing
memo, that he did not point the gun at –,” the court interrupted and said, “he
hadn’t testified to that under oath.” It then added, “I’ve heard other
testimony under oath that is not countered by that.” Id. at 155.
Examining the evidence from that perspective, the court then found:
1. When Robertson was walking down First Street, he did not have a gun
in his right hand. S.Tr. 153. The surveillance video did not show a gun
in his hand but it was clear he had a cellular telephone in his left hand.
S.Tr. 158.
2. The 911 call that prompted the officer was not “made up.” S.Tr. 154.
The caller’s observations seemed a “totally spontaneous” telling of what
he saw “as he’s walking along.” Id.
3. The officer located Robertson “in the area of First and Lomas
Boulevard.” S.Tr. 151. He approached Robertson and saw him “to have
a small pistol in his right hand. The officer ordered [Robertson] four
8

times to show his hands.” Id. He did not tell him to “drop the gun.”
S.Tr. 138. Robertson pointed the handgun at the officer. S.Tr. 151.
Robertson, “continued to move away from the officer, and he was again
given verbal commands.” Id.
4. Robertson again “turned” and “pointed the firearm at the officer.” The
officer “fired one round striking” Robertson. S.Tr. 151. A firearm was
found where Robertson “fell to the ground a few feet above his head.”
Id.
Based on its findings, the court ruled the probation office had correctly
applied the enhancements for committing a felony assault against the officer,
in a manner creating a substantial risk of serious bodily injury. S.Tr. 159,
164-65. Robertson had asked the court to examine the government’s evidence
using the beyond a reasonable doubt or clear and convincing evidence
standard. S.Tr. 160. It refused.
While the court believed the criminal history score was correctly
calculated, it felt category V over-represented the seriousness of Robertson’s
criminal history. It found the “more appropriate category” was “category IV.”
S.Tr. 164. The court noted the imprisonment range in this category at level
27 was 100 to 120 months. Id. 165. The court intimated Robertson made a
compelling argument for a 60 month term. S.Tr. 170. Ultimately, however,
in keeping with its sentences for similarly situated defendants, the court
varied down to only 84 months. S.Tr. 165, 170, 175; Vol. I at 186; Vol. III
(Statement of Reasons).

9

B. Tenth Circuit Proceedings
Robertson filed a timely notice of appeal. Doc. 46; Vol. I at 92. In a
published opinion, the Tenth Circuit panel majority found the district court’s
statements were “ambiguous” and did not amount to “clear and obvious
error.” United States v. Robertson, 946 F.3d 1168, 1173 (10th Cir. 2020).
Judge Briscoe disagreed. She found the district court “plainly erred by
drawing an adverse inference from Mr. Robertson’s silence at his sentencing
hearing.” Id. at 1175. In her opinion the court’s remarks warranted
reversing and remanding for resentencing. Id.
1. In her dissent, Judge Briscoe applied Mitchell to the facts and
concluded the district court violated Robertson’s Fifth
Amendment rights by factoring his silence into its sentencing
deliberations.
As Judge Briscoe explained in her dissent, the record demonstrates that
the district court committed plain error by holding Robertson’s silence against
him when deducing the facts which determined the severity of the
imprisonment term. 946 F.3d at 1173-74. When, as here, an accused’s
silence is a factor which persuades the district court to rely on the testimony
of other witnesses, the court commits error according to Mitchell v. United
States, 526 U.S. 314, 319 (1999). Id. Contrary to the majority opinion, Judge
Briscoe wrote, the district court’s deliberate comments on Robertson’s silence
were not “ambiguous.” 946 F.3d at 1173, 1174. She pointed out that the
majority came to this conclusion by ignoring “critical portions of the
sentencing transcript.” 946 F.3d at 1174. The majority did not dispute that it
had.

10

Judge Briscoe said the sentencing transcript showed the district court
repeatedly referenced Robertson’s failure to testify “under oath.” 946 F.3d at
1174. Its reference to his silence was not coincidental. Judge Briscoe
reasoned that if the court did not intend to consider Robertson’s silence when
deliberating on the evidence, its remarks would have been unnecessary. Id.
Taken as a whole and in context, the court’s comments show it questioning
whether it had any choice but to apply the exacting sentencing enhancements
given Robertson’s silence. Id. Thus, Judge Briscoe concluded that the
“district court’s explicit consideration of Mr. Robertson’s failure to testify
under oath . . . makes clear that [his] silence factored into the district court’s
analysis of the ‘other testimony’ presented at the sentencing hearing.” 946
F.3d at 1174. (emphasis in original).
However, Judge Briscoe joined the panel majority in rejecting Robertson’s
argument that when a guideline enhancement has a disproportionate impact
on the recommended imprisonment range relative to the offense of conviction,
the preponderance of the evidence standard will not adequately protect an
accused’s Fifth and Sixth Amendment rights. They all agreed that since this
Court has “not adopted a heightened standard of proof . . . when a contested
fact significantly changes the guidelines range of the sentence,” here, the
district court was correct to apply the preponderance of the evidence
standard. 946 F.3d at 1171, 1173.

11

Reasons for Granting the Writ on the First Question Presented
A sentencing court’s task is to determine the circumstances of the offense
and their impact on the severity of its sentence. Here, the court instead
remarked again and again on Robertson’s silence in court. In turn, according
to the objective record, it drew an adverse inference from his silence. By
doing so, the court imposed a burden on the right to remain silent. In other
words, the exercise of a constitutional right impermissibly colored the court’s
findings and they must be set aside.
Robertson pleaded guilty to being a felon in possession of a firearm. He
was sentenced as if he had used the firearm to assault a police officer. He
was neither charged with nor convicted of committing an assault with a
firearm. Yet, based on this alleged assault, the court applied sentencing
guideline enhancements that resulted in a 10 level increase, almost tripling
the prison term. The court’s decision to enhance the sentence was made, at
least in part, because it said it never heard from Robertson under oath.
The district court said despite reservations about the officer’s troubled
history and his haste in shooting Robertson, his testimony was “supported in
this case.” S.Tr. 154. It then said it was surprised it did not hear testimony
from Robertson, “the main player who would tell us that, ‘No, I did not point a
gun at Officer Arias.’” Id. 154-55. When defense counsel reminded the court
that his denial appeared throughout the objections in the sentencing memo,
the court interrupted with the retort, “he hadn’t testified to that under oath.”
It added, “I’ve heard other testimony under oath that is not countered by
that.” Id. 155.

12

The exchange is revealing. Not only is it the court who brings up
Robertson’s silence but it then dwells on it, repeatedly emphasizing the lack
of defense testimony under oath. Courtroom silence and its meaning is not
the question the court is obliged to examine. Rather, it is whether the
government “carried its burden to prove its allegations while respecting the
defendant’s individual rights.” Mitchell, 526 U.S. at 330. Robertson’s silence
was not only a wayward factor for the court, it was its focus. In effect,
Robertson was punished for invoking his Fifth Amendment right against selfincrimination.
If the court did not intend to use Robertson’s silence in its decisionmaking, why mention it at all? The panel majority does not say. The record
indicates the court used his silence to “quantitatively weigh it against the
government’s ‘untested’ evidence . . . .” United States v. Mezas de Jesus, 217
F.3d 638, 645 (9th Cir. 2000). The context in which the reference to
Robertson’s silence was repeated makes clear its significance to the court: a
failure to testify established the officer’s testimony as fact.
After Mitchell, a court need not expressly say it holds a defendant’s silence
against him. It is enough for a court to cite a failure to testify before allowing
a problematic officer’s testimony to enhance a sentence. If the sentencing
court erred, as Robertson and the Tenth Circuit dissent believe, the panel
majority’s decision conflicts with this Court’s decision in Mitchell and the
Court must grant review. See Supreme Court Rule 10(c).

13

A. In her dissent, Judge Briscoe pinpointed the district court
remarks that prove Robertson’s silence was a factor in his
sentence; the majority concluded otherwise because “it
omit[ted] critical portions of the sentencing transcript.”
The majority’s conclusion cannot be reconciled with a full and objective
reading of the sentencing transcript. Notably, the majority did not dispute
critical portions were left out. Judge Briscoe, however, read all of the court’s
relevant remarks and described their import in the context in which they
were made. Her methodical conclusion was that the district court plainly
erred by drawing an adverse inference from Robertson’s silence at his
sentencing hearing. It is why this Court should use its discretion to grant
certiorari, vacate the Tenth Circuit’s judgment, and remand for
reconsideration (GVR) in light of Mitchell.
In Mitchell, this Court held that a district court commits reversible error
by drawing any “adverse inference from the defendant’s silence” at sentencing
when “determining facts about the crime which bear upon the severity of the
sentence.” 526 U.S. at 316-17. Judge Briscoe understood the plain language
of this ruling. In Lee v. Crouse, she explained that after Mitchell it is
improper for a court to use a defendant’s silence to “‘infer commission of
disputed criminal acts’ for purposes of sentencing.” 451 F.3d 598, 606 (10th
Cir. 2006) (quoting Mitchell, 526 U.S. at 329). Here, she found the district
court had done just that. Rather than examine the officer’s testimony and
decide whether it established the fact in question - did Robertson point a gun
at the officer - the court examined Robertson’s decision not to testify. 946
F.3d at 1174. The district court’s single refrain during deliberations was that
Robertson failed to testify under oath. Id. In that context, the court signaled
its adverse opinion of Robertson’s silence.
14

For its part, the majority briefly discussed two snippets from the district
court’s deliberations. It said the district court mentioned it was “surprised”
it had not heard from Robertson and then it said the officer’s testimony “was
uncontradicted by direct testimony to the contrary.” 946 F.3d at 1173.
Removed from context, the majority claimed the first snippet was
“ambiguous” and thus, uncontroversial. It characterized the second as mere
comment on the government’s proof. Id. (“merely an observation . . . [on] the
only remaining testimony”). It found both statements ambiguous, failing
“plain error” review.4 The record sows doubt on its characterizations.
As Judge Briscoe noted, the majority expediently omitted the full exchange
between Robertson’s counsel and the district court:
The Court: I have some serious questions about [Officer Arias], frankly.
But I think his testimony is supported in this case. I’m a little surprised
that I didn’t hear from the main player who would tell us that, “No, I did
not point a gun at Officer Arias.” I didn’t hear that testimony.
Ms. Katze: Well, we’re here in a contested sentencing hearing because my
client is saying, as we said throughout the objections in the sentencing
memo, that he did not point the gun at - The Court: But he hadn’t testified to that under oath . . . And I’ve heard
other testimony under oath that is not countered by that.
946 F.3d at 1174 (citing ROA, Vol. IV at 161-62) (emphasis in original).
The government always bears the burden of proof, even when a court is
determining facts at sentencing. Mitchell barred a sentencing court from
drawing adverse inferences from a defendant’s decision to remain silent. Id.
(citing Mitchell, 526 U.S. at 327-30). Even when isolated, the panel majority

4

Unlike the majority, the government did not believe the court’s comments were

ambiguous. By its remarks, the court was “acknowledging that a sworn denial by
Robertson could have materially altered the balance of evidence.” GAB 23.

15

admitted the court’s “surprise” could mean it “was relying upon his failure to
take the stand” when it found Robertson pointed a gun at the officer. 946
F.3d at 1173; S.Tr. 154. By reinserting the missing context, what the court
meant becomes clear.
Judge Briscoe understood this. She found inferring guilt from Robertson
not testifying violates this Court’s well-established rules:
The district court would not have repeatedly referenced the lack of
testimony . . . if [] failure to testify was not a consideration in its analysis.
When, as we see here, [] silence is a factor which persuades the sentencing
court to rely on the testimony of other witnesses, the court commits error
under Mitchell . . . . [T]he district court’s focus in the above exchange was
on the absence of one specific piece of evidence – the testimony of Mr.
Robertson . . . [Its] own statements make clear that it considered Mr.
Robertson’s silence in determining whether Mr. Robertson pointed a gun
at Officer Arias.
946 F.3d at 1174.
In Mitchell, this Court found a remarkably similar comment regarding
silence was improper. 526 U.S. at 319, 330. There, Mitchell disputed the
drug quantity for which the co-defendants said she was responsible. During
cross-examination, one co-defendant admitted to not seeing Mitchell regularly
during the relevant time period. Id. at 318. Mitchell also relied on another
defendant’s testimony that documents recorded the amount of drugs Mitchell
sold. Despite Mitchell’s challenges to the co-defendants’ testimony, by “not
testifying to the contrary” the sentencing court found them persuasive. Id. at
319. This Court held the court’s remark demonstrated it had used Mitchell’s
silence to infer she committed the disputed acts. Id. at 329-30. It said it
would not tolerate any negative inference from a failure to testify. Id. at 328.
It emphasized a sentencing court may not infer anything from silence that
affects factual conclusions on the circumstances of the offense. Id. at 329-30.

16

Contrary to what the panel majority suggests, Mitchell did not hold the
sentencing court must expressly say it was basing the sentence on the
defendant’s silence. 946 F.3d at 1173. It is enough that a comment indicates
not testifying played a role “in determining the facts of the offense at the
sentencing hearing.” Mitchell, 526 U.S. at 330. “I didn’t hear that testimony”
and “he hadn’t testified to that under oath” both qualify. 946 F.3d at 1174.
Just like in Mitchell, the court used silence to infer the commission of the
disputed act - Robertson pointed a gun at the officer.5 In other words, despite
“serious questions” about the officer, absent a sworn rebuttal, his testimony
proved aggravated assault. Id. This shifted the burden to Robertson to show
sentencing enhancements should not apply. Thus, the sentencing court
violated the right to remain silent and due process.
The district court’s explicit consideration of Robertson’s silence is clear
from its own repeated comments on his failure to testify. It was error to do
so. As this Court already has addressed the identical issue in Mitchell, the
error is plain. Under the review appropriate for constitutional error, it is
likely the court’s explicit consideration affected its fact determination6 and
nearly tripled the potential sentencing range. When an error affects the
calculation of a defendant’s guideline range, the fourth prong is ordinarily

5

In United States v. Gonzales, 931 F.3d 1219, 1224 (10th Cir. 2019), the same

district court again applied the sentencing guidelines official victim enhancement,
§ 3A1.2, because Gonzales “hadn’t presented evidence” to counter its application. A
circuit panel found the ruling unsound. It held an accused did not need to present
any evidence.
6

By its remarks, the court was “acknowledging that a sworn denial by Robertson

could have materially altered the balance of evidence.” GAB 23.

17

satisfied when the first three prongs are satisfied. Rosales-Mireles v. United
States, 138 S. Ct. 1897, 1908-09 (2018). As Judge Briscoe wrote, all four
elements for plain error are met. This Court should grant Robertson’s
petition for a writ of certiorari.
**********

18

Reasons for Granting the Writ on the Second Question Presented
When a court finding exponentially increases a sentence for an uncharged
offense, Fifth and Sixth Amendment rights to due process and to a jury trial,
respectively, are best protected by using a ‘clear and convincing’ evidentiary
standard. When, like here, a lesser evidentiary standard is used to find an
uncharged crime and to nearly triple the recommended imprisonment range,
a blatant sentencing miscarriage occurs.
Robertson’s case exemplifies why a sentencing factor that has a highly
disproportionate effect on the prison term for the offense of conviction must
be established by at least clear and convincing evidence. Robertson pleaded
guilty to being a felon in possession of a firearm. He was never charged in
any court with aggravated assault. Still, at the government’s urging, he was
sentenced as if he had assaulted a police officer with a firearm based on a
factor only found at sentencing. The imprisonment range for the offense to
which he had pleaded guilty was 46 to 57 months. It grew to 120 to 150
months. In other words, the largest segment of the imprisonment range was
imposed to punish an alleged crime that was not charged or proven by the
government by clear and convincing evidence, let alone by a jury beyond a
reasonable doubt.
The Tenth Circuit panel insisted this Court “‘has left the choice of
standard to the discretion of the courts of appeals.’” 946 F.3d at 1171-72
(quoting United States v. Constantine, 263 F.3d 1122, 1125 n.2 (10th Cir.
2001)). It held Robertson’s argument for a higher standard of proof is
foreclosed by binding circuit precedent. Id. It did not address Robertson’s
argument that a modestly higher standard of proof would not unduly burden
the court or revoke its discretion. Nor did it discuss the Ninth Circuit test
19

that lets a sentencing court expeditiously decide when a heightened standard
is warranted. Distilled to its essence, the test states if the government argues
for guideline enhancements of four levels or more and the enhancements
more than double the imprisonment range, it must prove the conduct
supporting the enhancement by clear and convincing evidence. The panel
curtly wrote the Ninth Circuit is the only circuit to adopt such a standard.
946 F.3d at 1171. But given the constitutional rights at risk, Robertson asks
that the Court decide the Ninth Circuit’s reasoned approach be used by all
circuits.
While a preponderance of the evidence standard may be adequate for
many sentencing determinations, it is not appropriate for facts that have an
outsized effect on the length of imprisonment. Under this slight evidentiary
standard, facts found by the sentencing court alone necessarily determine the
prison term it gives. Likewise, the court can find facts that serve as legal
predicates for enhancing the term. This practice allows a majority of the
prison term to punish conduct for which there is neither an admission nor a
jury’s verdict. Constitutional prerequisites, which shape punishment’s legal
boundaries, are subverted.
The Founders made due process and a jury trial constitutional rights so a
person’s liberty was not decided too easily by a single individual. Yet, this is
precisely what happens when a sentencing judge makes a weighty decision
and does so by asking only which side produced the greater weight of
evidence. See Black’s Law Dictionary, 1201 (7th ed. 1999) (defining
preponderance of the evidence); Santosky v. Kramer, 455 U.S. 745, 764 (1982)
(preponderance considers quantity rather than quality of evidence). Even
more grievous, then, when the decision permits doubling or tripling the
20

sentence imposed. More protection is needed when such distortions are
possible. A heightened standard for fact-finding when sentences are
disproportionately affected simply asks that a court be reasonably certain the
government has established the elements of any uncharged offense. See
Black’s, 577 (defining clear and convincing evidence).
Here, the invocation of a higher standard would have preserved
meaningful due process and prevented a prison term grounded in contested
fact. Rather than deliberating on which side produced the greater weight of
evidence, which arguably invited the court to consider Robertson’s silence, a
higher standard would focus on whether the government carried its burden to
prove the aggravated assault it alleged. As Justice Scalia once wrote in
another case of perverse sentencing, only this Court’s intervention can “put
an end to the unbroken string of cases disregarding the [Fifth and] Sixth
Amendment” protections everyone is entitled to at sentencing. Jones v.
United States, 574 U.S. 948 (2014) (Scalia, J., dissenting from denial of
certiorari).
A. Given the circuit split, the Court should find when sentencing
enhancements have a disproportionate effect on the
imprisonment range of the convicted offense, a higher proof
standard best eliminates the subsequent threats to a
defendant’s rights and liberty during sentencing deliberations.
The instant case is one of many that begs the Court to act. For the offense
of conviction, felon in possession of a firearm, Robertson’s total adjusted
offense level was 17. When combined with criminal history category V, the
advisory imprisonment range was 46 to 57 months. The government sought
enhancements. The district court obliged. It made clear the reason for
raising the base offense level from 20 to 30 was its finding Robertson
committed an aggravated assault in a manner creating a substantial risk of
21

serious bodily injury. The finding had a disproportionate impact on the
advisory imprisonment range. The range ballooned past the statutory
maximum term to 120 to 150 months. PSR ¶ 62. The majority of the
sentence was for punishment beyond that of the pleaded crime. Worse still,
the court based its increase on testimony from an officer it had “serious
questions about.” 946 F.3d at 1174. Relying exclusively on a preponderance
of the evidence standard allows such egregious outcomes. See, e.g., United
States v. Gardenhire, 784 F.3d 1277, 1280 (9th Cir. 2015) (district court’s
theory on how conduct was reckless unproven by clear and convincing
evidence in record).
1. The effect of the risk of error and the interest at stake
determine the level of proof required.
The burden of proof “serves to allocate the risk of error between the
litigants and to indicate the relative importance attached to the ultimate
decision.” Addington v. Texas, 441 U.S. 418, 423 (1979). Its function in factfinding is to “instruct the factfinder concerning the degree of confidence our
society thinks he should have in the correctness of factual conclusions for a
particular type of adjudication.” Id. (quoting In re Winship, 397 U.S. 358, 370
(1970) (Harlan, J., concurring)); see also Washington v. Harper, 494 U.S. 210,
229 (1990) (Due Process Clause satisfied when procedural protections
determined by rights and interests at stake in the particular case). For
example, a preponderance standard is appropriate when the interest is
relatively unimportant, as in “civil cases involving a monetary dispute
between private parties.” Id. In contrast, the beyond a reasonable doubt
standard is necessary when an interest of “transcending value,” like a
person’s liberty, is at stake. Speiser v. Randall, 357 U.S. 513, 525-26 (1958).

22

Deciding which burden of proof to apply requires a thoughtful analysis of the
impact of error and the interests affected by the fact-finding.
Regarding the impact of error, this Court’s holdings are again instructive.
A lesser standard is warranted in civil cases whose interest is money because
it is “no more serious in general for there to be an erroneous verdict in the
defendant’s favor than . . . in the plaintiff’s favor.” Winship, 397 U.S. at 371
(Harlan, J., concurring); see also Addington, 441 U.S. at 423 (preponderance
standard used when society has “a minimal concern with the outcome”). In
criminal cases, however, where liberty is lost, “society imposes almost the
entire risk of error upon itself . . . .” Addington, 441 U.S. at 424. By applying
the highest standard of proof, society strives “to exclude as nearly as possible
the likelihood of an erroneous judgment.” Id. at 423. In other words, taking
meticulous care to avoid an erroneous finding acknowledges and protects the
transcendent interest at stake.
Yet, when a sentencing court decides, like here, whether a defendant
committed an uncharged crime, it is no longer necessary that it be “highly
probable or reasonably certain” he did it to find against him. United States v.
Jordan, 256 F.3d 922, 930 (9th Cir. 2001). Addington notwithstanding, now
almost the entire risk of error is borne by the defendant. Moreover, adverse
facts found using the lesser standard may significantly affect his liberty “in
terms of absolute years behind bars.” Apprendi v. New Jersey, 530 U.S. 466,
495 (2000). Bloated prison terms predicated on alleged acts proven only by a
preponderance are a sentencing anomaly that offends due process. See
United States v. Tucker, 404 U.S. 443, 447 (1972) (due process right not to be
sentenced on materially incorrect information); Townsend v. Burke, 334 U.S.

23

736, 741 (1948) (due process violation for sentence to be based on materially
untrue assumptions).
A higher evidentiary standard at sentencing lessens the risk of excessive
sentences based on analyses of insufficient rigor. See Woodby v. I.N.S., 385
U.S. 276, 285-86 (1966) (clear and convincing standard requires “Government
to establish . . . by clear, unequivocal, and convincing evidence . . . its
allegations . . . are true.”). In situations where the interest at issue is life,
physical liberty, or one’s future, this Court has held the clear and convincing
standard categorically lessens the risk of erroneous decisions. See e.g.,
Masson v. New Yorker Magazine, Inc., 501 U.S. 496, 510 (1991) (First
Amendment requires proof of actual malice by clear and convincing evidence
to establish libel of public figure); Santosky, 455 U.S. at 769-70 (holding clear
and convincing standard appropriate for termination of parental rights);
Addington, 441 U.S. at 432-33 (holding clear and convincing standard
constitutionally sufficient for civil commitments); Woodby, 385 U.S. at 285
(clear and convincing standard applies to deportation decisions); Chaunt v.
United States, 364 U.S. 350, 353 (1960) (clear and convincing standard
applies to denaturalization decisions); see also 26 U.S.C. § 7454(a) (burden on
IRS to establish taxpayer’s civil fraud by clear and convincing evidence).
Accordingly, both the interest involved in criminal sentencing and the
importance of the ultimate decision demand the burden of proof allocate the
risk of error to lessen the likelihood of unjust punishment. See Winship, 397
U.S. at 364 (heightened evidentiary standard “indispensable to command the
respect and confidence of the community in applications of the criminal
law.”).

24

2. When a guideline enhancement has a disproportionate impact
on the recommended prison range of the offense of conviction,
a preponderance of the evidence standard does not adequately
protect due process rights.
When the government requests a sizeable enhancement to the
recommended guideline imprisonment range for an uncharged offense,
heightened evidentiary proof unquestionably safeguards due process rights
better than a preponderance standard. While advisory, a court may not
ignore the sentencing guidelines; it must use them as part of the “analytic
framework” that determines the sentence. Freeman v. United States, 564
U.S. 522, 530 (2011). Likewise, a district court’s discretion will not be
diminished or unduly burdened if, in limited instances, it must examine the
evidence using a modestly higher standard of proof. It is a reasonable
balance made between the amount of liberty lost and the minimal procedural
process expected of the government and the court. See Mathews v. Eldridge,
424 U.S. 319, 334-35 (1976) (due process depends, in part, on balancing
interest affected against burden on government to use heightened procedural
requirements). A clear and convincing standard ensures greater certainty in
a court’s factual conclusions, which befits the loss of more liberty than
authorized by either admissions or jury verdict.
When, as here, more than half of the calculated imprisonment range
derives from the court finding an uncharged offense, a higher level of
procedural protection is a commensurate expectation. Although this Court
has not yet addressed the issue, the Ninth Circuit has developed a test for
when a disputed guideline enhancement will raise the evidentiary bar. Its
method “is consistent with the ‘flexible’ requirements of due process.”
Jordan, 256 F.3d at 928; see also Morrissey v. Brewer, 408 U.S. 471, 481

25

(1972) (“Due process is flexible and calls for such procedural protections as
the particular situation demands.”). The abridged Ninth Circuit factors are
(1) the facts offered in support of the enhancement create new offenses
requiring separate punishment; (2) the increase in sentence is based on the
extent of a conspiracy; (3) an increase in the number of offense levels is more
than or equal to four; and (4) the length of the enhanced sentence more than
doubles the length of the sentence authorized. United States v. Hymas, 780
F.3d 1285, 1290 (9th Cir. 2015).7
Applying the Ninth Circuit test here illustrates its utility and simplicity.
The court’s determination that Robertson assaulted the officer and caused a
substantial risk of serious bodily injury created a separate crime. See
PSR ¶¶ 13, 14 (alleging Robertson committed an aggravated assault against
the officer under New Mexico law); Addendum to PSR, Vol. II at 31 (same).
The increase was not based on the extent of a conspiracy. The combined
increase of 10 levels is greater than 4. PSR ¶¶ 12-17. And the enhanced
imprisonment range more than doubled the length of the sentence authorized
by Robertson’s guilty plea. See PSR ¶ 62 (calculating enhanced range as 120
to 150 months). The test is accomplished with such ease because the factors

7

The Ninth Circuit’s test contains two other factors: (1) the enhanced sentence

falls within the maximum sentence for the crime alleged in the indictment and (2)
the enhanced sentence negates the presumption of innocence or the prosecution’s
burden of proof for the crime alleged in the indictment. Because the guidelines
prohibit the imposition of a sentence outside the statutory maximum and no
defendant would reach sentencing without the presumption of innocence being
overcome either by plea or at trial, it is unclear how the two factors will ever be
triggered. Evidently, the use of the clear and convincing standard has never turned
on the application of these factors.

26

used are wholly objective. See United States v. Staten, 466 F.3d 708, 719-20
(9th Cir. 2006) (in “limited instances” where clear and convincing standard
applies, it “turns on whether . . . the district court’s . . . factual finding was . . .
determinative . . . of the sentence given.”). Here, each of the Ninth Circuit’s
four objective factors would have directed the district court to use a higher
standard of proof.8
**********

8

See, e.g., Mezas de Jesus, 217 F.3d at 642-44 (due process required clear and

convincing standard because 9 level increase for uncharged kidnaping caused less
than two year prison term to increase to almost five); United States v. Hopper, 177
F.3d 824, 833 (9th Cir. 1999) (district court erred in not applying clear and
convincing standard for enhancements that added 7 levels and caused
imprisonment range to more than double); United States v. Munoz, 233 F.3d 1117,
1127 (9th Cir.2000) (9 level upward adjustment in sentence for uncharged conduct
was sufficiently disproportionate to apply clear and convincing standard to factual
findings); Jordan, 256 F.3d at 929 (district court plainly erred in not applying clear
and convincing standard to 9 level enhancements that more than doubled the
recommended imprisonment range); United States v. Townley, 929 F.2d 365, 369
(8th Cir. 1991) (clear and convincing evidence appropriate where prosecutor proved
a single drug infraction involving 27 grams but urged trial court to sentence as
multi-person cocaine conspiracy entailing nearly 6,000 grams, producing 18 level
increase in base offense level and seven-fold increase in permissible sentencing
range).

27

3. When only a judge’s fact-finding makes a sentence
substantively reasonable, the Fifth and Sixth Amendments
dictate the degree of proof required for the fact to
constitutionally affect the prison term.
This Court’s rulings have implicitly endorsed the Ninth Circuit’s approach.
Citing the Fifth and Sixth Amendments, the Court has sought to restrict the
use of facts at sentencing that are not confessed or proven beyond a
reasonable doubt. See, e.g., Blakely v. Washington, 542 U.S. 296, 304-06
(2004) (punishment that “jury’s verdict alone does not allow” is
unconstitutional when sentencing authority derived “wholly from the jury’s
verdict”); Cunningham v. California, 549 U.S. 270, 281 (2007) (“any fact that
exposes a defendant to a greater potential sentence must be found by a jury,
not a judge.”). In Rita v. United States, 551 U.S. 338, 347 (2007), the Court
examined whether the Sixth Amendment lets appellate courts presume a
sentence that “reflects a proper application of the Sentencing Guidelines” is
reasonable. The Court found “[a] nonbinding appellate presumption” is
consistent with the Sixth Amendment. Id. at 353 (emphasis added).
However, Justices Scalia and Thomas wrote separately to stress that, under
the guidelines, “sentences whose legality is premised on a judge’s finding
some fact (or combination of facts)” violate the Sixth Amendment. Id. at 371
(Scalia, J., concurring in part and concurring in judgment).
To show how a Sixth Amendment violation unfolds, Justice Scalia
presented a hypothetical where “the district court imposes a sentence within
an advisory Guidelines range that has been substantially enhanced by certain
judge-found facts.” Id. (emphasis in original). The guideline range for a
robbery conviction in criminal history category I is 33 to 41 months. If the
district court found a firearm was discharged, serious bodily injury was

28

inflicted, and more than $5 million was stolen, the range skyrockets to 235 to
293 months. Id. at 371-72. Justice Scalia warned, “judge-found facts” are
“not merely facts that the judge finds relevant in exercising his discretion;
they are the legally essential predicate for his imposition of the 293-month
sentence.” Id. at 372. In the absence of judicial fact-finding, the “293-month
sentence . . . would surely be reversed as unreasonably excessive.” Id.
The facts and wildly disparate imprisonment ranges here fit Justice
Scalia’s hypothetical and animate his concerns that soft proof undermines the
Fifth and Sixth Amendments. The district court relied on an alleged
aggravated assault proven only by a preponderance of the evidence. Finding
Robertson pointed a gun undoubtedly was an essential predicate for the
prison term imposed. But for this fact, the point at which the court began its
guideline calculations was otherwise unsupportable. This is the exact
scenario of which Justice Scalia warned. See Cunningham, 549 U.S. at 290
(“Sixth Amendment requirement is not satisfied” when judge must find
additional fact to impose longer term); Jones, 574 U.S. 948 (Scalia, J.,
dissenting from denial of certiorari) (petitioners presented “strong case, that,
but for the judge’s finding of fact, their sentences would have been
substantively unreasonable and therefore illegal” in violation of Fifth and
Sixth Amendment rights).
Here, Robertson surrendered years of his life under a standard that does
not reflect “the weight and gravity” of the loss. Addington, 441 U.S. at 427.9

9

Not all Tenth Circuit panels agree a preponderance standard protects

constitutional rights at sentencing regardless of the circumstances. In United
States v. Ray, 704 F.3d 1307, 1314 (10th Cir. 2013) and United States v. Olsen, 519
F.3d 1096, 1105 (10th Cir. 2008), the panels said when a sentencing factor has a

29

“A standard of proof that by its very terms demands consideration of the
quantity rather than the quality of the evidence may misdirect the factfinder
in the marginal case.” Santosky, 455 U.S. at 764. Thus, Justice Scalia
consistently urged a straightforward application of constitutional protections
when the reasonableness of a sentence depends on facts found by a
sentencing court using a diminished evidentiary standard.
For example, in Marlowe v. United States, 555 U.S. 963 (2008), a Sixth
Circuit panel upheld a sentence that relied solely on facts found by the
sentencing court; specifically, Marlowe possessed the “malice aforethought”
required for second-degree murder. Justice Scalia, dissenting from the denial
of certiorari, decried an outcome that “falls short of what we have held the
right to trial by jury demands: ‘Any fact (other than a prior conviction) which
is necessary to support a sentence exceeding the maximum authorized by the
facts established by a plea of guilty or a jury verdict must be admitted by the
Defendant or proved to a jury beyond a reasonable doubt.’” 555 U.S. at 963
(quoting United States v. Booker, 543 U.S. 220, 244 (2005)).10
In Jones, Justices Ginsburg and Thomas joined him to make the same
point. There, a jury convicted the petitioners of distributing “very small
amounts of crack cocaine” but acquitted them of a distribution conspiracy.
547 U.S. at 948. Relying on its own findings, the district court sentenced

disproportionate effect on the sentence, the Due Process Clause may require
government proof by clear and convincing evidence.
10

Cf. Gall v. United States, 552 U.S. 38, 60 (2007) (Scalia, J., concurring) (“the

door . . . remains open for a defendant to demonstrate that his sentence . . . would
not have been upheld but for the existence of a fact found by the sentencing judge
and not by the jury.”).

30

them as if they had engaged in the conspiracy and imposed prison terms
“many times longer than those the Guidelines would otherwise have
recommended.” Id.11 Justice Scalia again criticized the district court’s
enhanced sentence because it plainly violated the petitioners’ Fifth and Sixth
Amendment rights. Any fact “necessary to prevent a sentence from being
substantively unreasonable – thereby exposing the defendant to a longer
sentence . . . must be either admitted by the defendant or found by the jury.
It may not be found by a judge.” Id. (emphasis in original).
This Court has yet to address the arguments of Justice Scalia and
countless petitioners. As it stands then, the “factual certainty” required to
take away years, if not decades, of liberty is “no greater than that necessary
to award money damages in an ordinary civil action.” Santosky, 455 U.S. at
747. It cannot be right that the “drastic deprivations that [] follow” can be
based “upon no higher degree of proof than applies in a negligence case.”
Woodby, 385 U.S. at 487. As a matter of perception and for all practical
purposes, the constitutional rights to due process and trial by jury become
nullities if a person can be imprisoned for an uncharged crime that he did not
admit and that the sentencing court does not even need to be reasonably

11

Petitioners’ recommended imprisonment ranges went from 27 to 71 months to

262 to 405 months. Id. (citing United States v. Jones, 744 F.3d 1362, 1366, 1369
(D.C. Cir. 2014)).

31

certain occurred.12 It cannot be right that only the Ninth Circuit has
recognized this tragedy.
To consider a heightened standard, Addington is helpful. In the trial court
there, Addington argued the state had to prove beyond a reasonable doubt
that he was mentally ill and required hospitalization before involuntarily
committing him to a state institution. The court disagreed and told the jury
the evidentiary standard was “clear, unequivocal and convincing evidence.”
441 U.S. at 421. The court of appeals agreed with Addington but the state
supreme court said a preponderance of the evidence standard “satisfied due
process.” Id. at 422.
This Court found the preponderance standard was not robust enough to
protect Addington’s due process rights. “The individual should not be asked
to share equally with society the risk of error when the possible injury to the
individual is significantly greater than any possible harm to the state.” 441
U.S. at 427. The Court held that due process required the state “to justify
confinement by proof more substantial than a mere preponderance of the
evidence.” Id. Its reasoning still applies.
When the government must prove an uncharged crime that dramatically
enhances the imprisonment range by only a preponderance of evidence, the
risk of an erroneous decision is not fairly distributed between the two parties.
See Santosky, 455 U.S. at 758 (risk of error from using preponderance

12

This Court has called it an “absurd result” when a person can be sentenced “for

committing murder, even if the jury convicted him only of illegally possessing the
firearm used to commit it – or making an illegal lane change while fleeing the death
scene.” Blakely, 542 U.S. at 306. Yet, the Tenth Circuit sanctioned such a result
here.

32

standard is “substantial.”). To the government an error may mean defending
the decision on appeal. To the defendant it may mean years more in prison.
“A standard that allocates the risk of error nearly equally between those two
outcomes does not reflect properly their relative severity.” Santosky, 455 U.S.
at 766; see also id. at 764 (“the social cost of even an occasional error is
sizable.”).
Like other “‘inroads upon the sacred bulwark of the nation,’” using an
uncharged offense that is constitutionally unproven to support the larger part
of an imprisonment range is “‘fundamentally opposite to the spirit of our
constitution.’” Booker, 543 U.S. at 244 (quoting W. Blackstone, Commentaries
on the Laws of England 343-44 (1769). If the Court cannot agree with Justice
Scalia’s belief that only the standard required of a jury can protect
constitutional rights, then expecting proof by clear and convincing evidence
“strikes a fair balance” between rights and the government’s burden.
Santosky, 455 U.S. at 769. It is the ideal alternative. It is a “burden
approximating” beyond a reasonable doubt. Addington, 441 U.S. at 432. And
it “is one way to impress the factfinder with the importance of the decision
and . . . reduce the chances that inappropriate [prison terms] will be ordered.”
Id. at 427.
Indeed, this Court has already discussed the standard before. “[W]hen the
individual interests at stake . . . are both ‘particularly important’ and ‘more
substantial than mere loss of money’ . . . . [T]he Court has deemed this level
of certainty necessary to preserve fundamental fairness in . . . proceedings
that threaten . . . ‘a significant deprivation of liberty’ or ‘stigma.’” Santosky,
455 U.S. at 756 (quoting Addington, 441 U.S. at 424, 425, 426). In this light,
it is not overreaching to infer the clear and convincing standard should apply
33

in circumstances like those delineated in the Ninth Circuit test. Robertson
respectfully asks the Court to apply the test in all circuits.
Conclusion
For the reasons given in his petition, Robertson respectfully requests this
Court grant his petition for writ of certiorari.

Respectfully submitted,
Stephen P. McCue
Federal Public Defender
DATED: July 16, 2020
By:

s/Margaret A. Katze
Margaret A. Katze*
Federal Public Defender
Attorneys for the Petitioner
* Counsel of Record

34

Appendix
Tenth Circuit’s Published Decision in Current Appeal (January 6, 2020) . . . 1a
Tenth Circuit’s Order Denying Petition for Panel Rehearing/Rehearing
En Banc (February 18, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10a

United States v. Robertson, 946 F.3d 1168 (2020)
2020 WL 54652

946 F.3d 1168
United States Court of Appeals, Tenth Circuit.
UNITED STATES of
America, Plaintiff - Appellee,
v.
Jeremias ROBERTSON,
Defendant - Appellant.

West Headnotes (11)
[1]

Criminal Law
Sentencing
110 Criminal Law
110XXIV Review
110XXIV(L) Scope of Review in General
110XXIV(L)13 Review De Novo
110k1139 In general
110 Criminal Law
110XXIV Review
110XXIV(O) Questions of Fact and
Findings
110k1158.34 Sentencing

No. 18-2165
|
FILED January 6, 2020
Synopsis
Background: Defendant was convicted, upon a guilty
plea, in the United States District Court for the District
of New Mexico, James A. Parker, Senior District
Judge, of possession of a firearm and ammunition by a
felon, and was sentenced to an 84-month prison term.
Defendant appealed, challenging his sentence.

Holdings: The Court of Appeals, Kelly, Senior Circuit
Judge, held that:

The Court of Appeals reviews a district
court’s factual findings at sentencing for
clear error and its legal conclusions de
novo.

[2]

[2] evidence supported sentencing determination that
defendant assaulted law enforcement officer in a
manner creating substantial risk of bodily injury; and

Factual findings at sentencing are clearly
erroneous if they are without factual
support in the record or if the appellate
court is left with a definite and firm
conviction that a mistake has been made.

[3] any error in sentencing court's expression of
surprise about defendant's failure to testify was not
plain error.
[3]

Briscoe, Circuit Judge, file opinion, concurring in part,
and dissenting in part.
Procedural Posture(s): Appellate Review.

Criminal Law
Sentencing
110 Criminal Law
110XXIV Review
110XXIV(O) Questions of Fact and
Findings
110k1158.34 Sentencing

[1] factual finding at sentencing that defendant pointed
a gun at a law enforcement officer was subject to
review for preponderance of the evidence;

Affirmed.

Criminal Law
Review De Novo

Criminal Law
Judgment, sentence, and punishment
110 Criminal Law
110XXIV Review
110XXIV(M) Presumptions
110k1144 Facts or Proceedings Not
Shown by Record
110k1144.17 Judgment, sentence, and
punishment

The Court of Appeals views the evidence
in the light most favorable to the

001a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Robertson, 946 F.3d 1168 (2020)
2020 WL 54652

government, in an appellate challenge to a
sentencing decision.

[4]

law enforcement officer in a manner
creating a substantial risk of bodily
injury, as required to support six-level
sentencing increase; officer testified that
defendant pointed a handgun at him and
simultaneously pleaded not to be shot.

Criminal Law
Sentencing
110 Criminal Law
110XXIV Review
110XXIV(O) Questions of Fact and
Findings
110k1158.34 Sentencing

U.S.S.G. § 3A1.2(c)(1).

[7]

Sentencing court's factual determination
that defendant convicted of being a felon
in possession of a firearm pointed a gun at
law enforcement officer, which resulted in
an increase of 10 levels in the base offense
sentencing level, and which more than
doubled the initial Sentencing Guidelines
range, was subject to review on appeal
for preponderance of the evidence, rather
than for clear and convincing evidence.

Criminal Law
Sentencing
110 Criminal Law
110XXIV Review
110XXIV(O) Questions of Fact and
Findings
110k1158.34 Sentencing

Because the district court is in the
best position to observe witnesses, the
Court of Appeals is loath to secondguess a district court’s determination of a
witness’s credibility at sentencing.

U.S.S.G. § 1B1.1 et seq.

[5]

Sentencing and Punishment
Degree of Proof
350H Sentencing and Punishment
350HII Sentencing Proceedings in
General
350HII(F) Evidence
350Hk322 Degree of Proof
350Hk322.3 In general

Generally, factual findings at the
sentencing stage must be supported by a
preponderance of the evidence.

[6]

Sentencing and Punishment
Amount and degree of loss or injury
350H Sentencing and Punishment
350HIV Sentencing Guidelines
350HIV(H) Proceedings
350HIV(H)2 Evidence
350Hk974 Sufficiency
350Hk978 Amount and degree of loss or
injury

Evidence was sufficient to prove that
defendant convicted of being a felon
in possession of a firearm assaulted a

[8]

Criminal Law
Sentencing proceedings in general
110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and
Reservation in Lower Court of Grounds of
Review
110XXIV(E)1 In General
110k1042.3 Sentencing and Punishment
110k1042.3(2) Sentencing proceedings in
general

Any error in District Court's expression
of surprise about defendant's failure to
testify that he did not point a gun at
law enforcement officer did not amount
to clear and obvious error, as required
for reversal of sentence, which was
based, in part, on finding that defendant
pointed gun at officer, under plain error
standard, where Court did not indicate
that it was basing defendant's sentence
on defendant's silence.
2K2.1(b)(6),

U.S.S.G. §§

3A1.2(c)(1).

002a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Robertson, 946 F.3d 1168 (2020)
2020 WL 54652

[9]

Criminal Law
Necessity of Objections in General
110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and
Reservation in Lower Court of Grounds of
Review
110XXIV(E)1 In General
110k1030 Necessity of Objections in
General
110k1030(1) In general

When a defendant raises an issue for the
first time on appeal, the appellate court
reviews the issue for plain error.

[10]

Criminal Law
Necessity of Objections in General
110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and
Reservation in Lower Court of Grounds of
Review
110XXIV(E)1 In General
110k1030 Necessity of Objections in
General
110k1030(1) In general

The plain error standard of review
requires (1) an error, (2) that is plain, (3)
which affects the defendant's substantial
rights, and (4) which seriously affects the
fairness, integrity, or public reputation of
judicial proceedings.

*1169 Appeal from the United States District
Court for the District of New Mexico (D.C. No.
1:17-CR-02573-JAP-1)
Attorneys and Law Firms
Margaret A. Katze, Assistant Federal Public Defender,
Albuquerque, New Mexico, for Defendant - Appellant.
Howard R. Thomas, Assistant United States Attorney
(and John C. Anderson, United States Attorney, with
him on the brief), Albuquerque, New Mexico, for
Plaintiff - Appellee.
Before BRISCOE, KELLY, and BACHARACH,
Circuit Judges.
Opinion
KELLY, Circuit Judge.
**1 Defendant-Appellant Jeremias Robertson pled
guilty to possession of a firearm and ammunition by a
18 U.S.C. § 922(g)(1), and was sentenced to
felon,
a term of 84 months’ imprisonment followed by three
years’ supervised release. 1 On appeal he challenges
the district court’s findings that he pointed a gun at an
officer, thereby resulting in a four-level enhancement
for use or possession of a firearm in connection
with another felony offense (aggravated assault with
a deadly weapon), and a six-level enhancement for
assaulting the officer in a manner creating a substantial
risk of bodily injury.

[11]

Criminal Law
Necessity of Objections in General
110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and
Reservation in Lower Court of Grounds of
Review
110XXIV(E)1 In General
110k1030 Necessity of Objections in
General
110k1030(1) In general

The plain error standard of review is a
high standard for the appellant to meet.

U.S.S.G. §§ 2K2.1(b)(6) &

U.S.S.G. § 3A1.2(c)(1). He argues that (1) the
district court should have required proof by clear
and convincing evidence, (2) under any standard of
proof, the evidence did not support the district court’s
findings, and (3) the district court erroneously drew a
negative inference from his silence at the sentencing
hearing. See Aplt. Br. at 1–3. We exercise *1170
jurisdiction under 28 U.S.C. § 1291 and
§ 3742(a), and affirm.

18 U.S.C.

Background
The district court held an evidentiary hearing. In
August 2017, Albuquerque Police Department officer

003a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Robertson, 946 F.3d 1168 (2020)
2020 WL 54652

Steven Arias responded to a 911 call reporting a man
walking through the downtown part of the city “pulling
out a gun” and “pointing it at people.” Aplee. Br. at 1
(citing V R. Ex. W). Mr. Robertson, who matched the
description given by the 911 caller, was walking in the
area when the officer arrived. Id. at 2. Mr. Robertson
crossed First Street and headed northeast through a
dirt parking lot. Aplt. Br. at 5. Officer Arias stopped
his police vehicle at the north end of First Street.
Id. Spotting Mr. Robertson, Officer Arias accelerated
toward him. Id. Mr. Robertson quickened his pace,
crossed to the sidewalk on the east side of First Street,
and passed out of Officer Arias’s line of sight behind
a tow truck. IV R. 21–22. Officer Arias stopped his
vehicle next to the tow truck and exited. Id. The
officer testified that based on the description on the
911 call and Mr. Robertson’s proximity to the area, he
believed there was a high likelihood that an object in
Mr. Robertson’s right hand was a gun. Id. at 23.
Officer Arias rounded the tow truck and spotted Mr.
Robertson, who continued to move through the parking
lot while partially obscured by cars. Id. 23:24–24:1.
Officer Arias crouched behind a car for cover and twice
shouted “show me your hands.” Id. at 24:22; see Aplt.
Br. at 6. According to Officer Arias, Mr. Robertson
then “kind of turned to the west looking over his left
shoulder with a small caliber handgun in his right hand,
and he pointed it at [Officer Arias].” IV R. 23:1–11;
Aplt. Br. at 3. Officer Arias then took cover behind a
sedan. IV R. 23:20–24:3.
**2 When Officer Arias looked back, Mr. Robertson
was again “moving at a brisk pace” toward the
northeast. Aplt. Br. at 4. Officer Arias testified that he
repeated his commands and Mr. Robertson responded
by saying something to the effect of “I didn’t do
anything wrong,” and “don’t shoot me.” Id. 56:1–
13. Officer Arias testified that Mr. Robertson then
again pointed a gun at him over his shoulder, and the
officer identified it as a gun “because of the barrel.”
Id. at 25:9–13. Fearing that Mr. Robertson might shoot,
Officer Arias fired a single round from his service rifle
toward Mr. Robertson’s chest. Id. at 14–17. The bullet
entered Mr. Robertson’s chest under his left armpit and
incapacitated him. Id. at 20–24. A handgun was later
recovered near where Mr. Robertson fell to the ground.
Aplt. Br. at 7.

The district court also heard testimony from Johnny
Pinson, a bystander. Mr. Pinson testified that he saw
Mr. Robertson cross First Street before Officer Arias
arrived. IV R. 123:20–24. According to Mr. Pinson,
Mr. Robertson appeared to be listening to music at the
time and did not have a gun in his hand. Id. at 123:2–
10. Mr. Pinson also testified that he did not see a gun in
Mr. Robertson’s hands when he turned in response to
Officer Arias’s commands. Id. at 123:13–15. However,
he later testified that “wouldn’t have seen” whether Mr.
Robertson had a gun in his right hand. Id. at 135:8–9.
Mr. Robertson also presented evidence of Officer
Arias’s troubled disciplinary record and his “proclivity
for violent confrontation.” Aplt. Br. at 8. Officer Arias
was removed from a Special Weapons and Tactics
(SWAT) team because he fired three “bean bag” shots
at a man’s head. Id. He was also given a 32-hour
suspension and a letter of reprimand for that incident.
Id. Officer Arias received a verbal reprimand for
improper use of force after he pointed *1171 his
firearm at a man who had reported domestic violence
involving his neighbor. Id. at 8–9. He was suspended
for 40 hours and sent to anger management counseling
for assaulting a police lieutenant. Id. at 9.
The court acknowledged that it “had serious questions”
about Officer Arias because of his disciplinary history.
IV R. 161:23. Nevertheless, it found his testimony
“supported in this case.” Id. at 161:24. The court also
stated the following: “I’m a little surprised that I didn’t
hear from the main player who would tell us that ‘no, I
did not point a gun at Officer Arias.’ I didn’t hear that
testimony.” Id. at 161:25–162:2.
Counsel stated Mr. Robertson’s position that he never
pointed a gun at Officer Arias. Id. at 162:3–10. The
district court then said: “But he ha[s]n’t testified to that
under oath ... And I’ve heard other testimony under
oath that is not countered by that.” Id. The district
court explained that Mr. Pinson, while an “honest
person,” had given testimony that did “not fit what was
shown on the video” evidence. Id. at 163. The district
court ultimately found that “testimony under oath,
uncontradicted by direct testimony to the contrary,”
supported a finding that Mr. Robertson had twice
pointed the gun at Officer Arias. Id. at 166.
Discussion

004a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Robertson, 946 F.3d 1168 (2020)
2020 WL 54652

[1]
[2]
[3] This court reviews a district court’s
factual findings at sentencing for clear error and its
legal conclusions de novo. United States v. Lozano,
921 F.3d 942, 946 (10th Cir. 2019). Factual findings
are clearly erroneous if they are without factual support
in the record or if the court is left with a definite and
firm conviction that a mistake has been made. Id. We
view the evidence in the light most favorable to the
government. Id.
[4] Mr. Robertson urges a higher standard of proof.
The district court found—over Mr. Robertson’s
objection—that he pointed a gun at a law enforcement
officer. This resulted in an increase of 10 levels, which
more than doubled the initial guidelines range from
46–57 months to 120 months (the statutory maximum).
Aplt. Br. at 24. Because this disputed fact had a
disproportionate effect on his sentence, Mr. Robertson
contends that due process requires the government to
prove it by clear and convincing evidence rather than
by a preponderance of the evidence. Id. at 22 (citing
United States v. Ray, 704 F.3d 1307, 1314 (10th Cir.
2013)).
**3 [5] Generally, factual findings at the sentencing
stage must be supported by a preponderance of
the evidence.
United States v. Olsen, 519 F.3d
1096, 1104 (10th Cir. 2008). The Supreme Court has
not yet held that due process requires a heightened
standard when a contested fact significantly changes
the guidelines range of the sentence. Five circuits have
rejected that argument. See United States v. VillarealAmarillas, 562 F.3d 892, 894–98 (8th Cir. 2009);
United States v. Grubbs, 585 F.3d 793, 800–03
(4th Cir. 2009);

United States v. Fisher, 502

F.3d 293, 295–308 (3d Cir. 2007);
United States v.
Brika, 487 F.3d 450, 461–62 (6th Cir. 2007); United
States v. Reuter, 463 F.3d 792, 792–93 (7th Cir. 2006).
Mr. Robertson points to a test adopted by the Ninth
Circuit to determine whether a fact must be proven by
heightened standard at sentencing. Aplt. Br. at 22; see
United States v. Hymas, 780 F.3d 1285, 1290 (9th
Cir. 2015). The Ninth Circuit is the only circuit to adopt
such a standard.
The Supreme Court has not adopted a heightened
standard of proof at sentencing for contested facts, thus

we hold that the correct standard of proof in this case
was a preponderance of the evidence. This issue has
been foreclosed in this Circuit. See *1172 United
States v. Constantine, 263 F.3d 1122, 1125 n.2 (10th
Cir. 2001) (“The Supreme Court has left the choice of
standard to the discretion of the courts of appeals ...
and within the Tenth Circuit[,] the arguments for
higher standards are ‘foreclosed by binding precedent.’
” (quoting United States v. Valdez, 225 F.3d 1137,
1143 n.2 (10th Cir. 2000)));
United States v.
Washington, 11 F.3d 1510, 1516 (10th Cir. 1993) (“We
have clear holdings that the preponderance standard
applies to fact finding in the sentencing process. ...
At least as concerns making guideline calculations the
issue of a higher than a preponderance standard is
foreclosed in this circuit.”). 2
[6] Mr. Robertson next contends that the district
court’s factual finding that he assaulted Officer Arias
in a manner creating a substantial risk of bodily
injury was improper “[u]nder any standard of proof.”
Aplt. Br. at 26. We review a district court’s factual
findings for clear error; because we decline to adopt a
heightened standard for the fact at issue in this case, we
look for clear error in the findings that the judge made
by a preponderance of the evidence. See Lozano, 921
F.3d at 946.
[7] Mr. Robertson argues essentially that the district
court erred when it credited Officer Arias’s testimony
that Mr. Robertson simultaneously pointed a handgun
at him and pleaded not to be shot. See Aplt. Br.
at 26–31. The district court heard and considered a
variety of claims about that moment and assessed
the credibility of the officer under direct and crossexamination. Because the district court is in the best
position to observe witnesses, “[t]his court is loath
to second-guess a district court’s determination of a
witness’s credibility.”
United States v. Asch, 207
F.3d 1238, 1243 (10th Cir. 2000). The fact that the
district court “had serious questions” about Officer
Arias’s background but nonetheless decided that “his
testimony is supported in this case” shows that it
engaged in exactly the kind of on-the-ground balancing
and demeanor judgments for which district courts
administering hearings are particularly well-suited.
See IV R. 161:23–24. The district court’s findings by

005a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Robertson, 946 F.3d 1168 (2020)
2020 WL 54652

a preponderance thus have support in the record and
were not in clear error.
**4 [8] Mr. Robertson’s final argument is that the
district court drew a negative inference from his
decision not to testify at the sentencing hearing. Aplt.
Mitchell v.
Br. at 31. Mr. Robertson argues that
United States, 526 U.S. 314, 119 S.Ct. 1307, 143
L.Ed.2d 424 (1999) establishes that it is reversible
error for a sentencing judge to “draw[ ] an adverse
inference from the accused’s silence at sentencing.”
Aplt. Br. at 32. At sentencing, the court made the
following remark:
THE COURT: I have some serious questions about
[Officer Arias], frankly. But I think his testimony is
supported in this case. I’m a little surprised that I
didn’t hear from the main player who would tell us
that, “No, I did not point a gun at Officer Arias.” I
didn’t hear that testimony.
IV R. 161:23–162:2. Mr. Robertson argues that this
comment shows a violation of his Fifth Amendment
right to remain silent and to due process. Aplt. Br. at 31.

The district court’s comments in this case are
ambiguous. Had the district court said it was basing
the sentence on Mr. Robertson’s silence, the district
court would have committed error. The district court
expressed “surprise” that it had not heard from Mr.
Robertson, which could mean that the court was
relying upon his failure to take the stand. But the
statement also could be taken at face value. The
court’s statement that Officer Arias’s testimony “was
uncontradicted by direct testimony to the contrary”
was merely an observation that after discounting
Johnny Pinson’s testimony, see IV R. 135:4–16,
157:18–158:6, the only remaining testimony on the
issue was that Mr. Robertson pointed the gun at Officer
Arias. Given the ambiguity in the court’s statements,
if there was error, it was not “clear or obvious” and
would not satisfy the second element of the plain error
test. See United States v. Fonseca, 744 F.3d 674, 684
(10th Cir. 2014) (concluding that ambiguity in the
district court’s ruling was not “plainly or obviously
improper”); see also United States v. Draffin, 286 F.3d
606, 610 (D.C. Cir. 2002).
AFFIRMED.

[9]
[10]
[11] Mr. Robertson contends that he
sufficiently objected at sentencing by reminding the
BRISCOE, Circuit Judge, concurring and dissenting.
court that Mr. Robertson did not have to testify to
I agree with the majority’s conclusion that the district
challenge the application of enhancements because
court was correct in applying a preponderance of
other testimony contradicted Officer Arias’s version of
the evidence standard of proof, although I would
events, and that any further objection *1173 would
also address and reject Mr. Robertson’s additional
have been futile. Aplt. Reply Br. at 22; see IV R.
contention that the district court erred in its application
162:11–14. We disagree that counsel’s objection was
of the preponderance standard. See Aplt. Br. at 15–
sufficient. Because Mr. Robertson raises this specific
21. The record provides no indication that the district
issue for the first time on appeal, we review the district
court applied an “ample evidence” standard, id. at 16,
court’s statement for plain error. See
United States
or that it merely examined the quantum of the evidence
v. Garcia-Caraveo, 586 F.3d 1230, 1232 (10th Cir.
presented, id. at 17. I agree that the district court did
2009). Plain error is (1) error, (2) that is plain, (3)
not clearly err in its factual findings.
which affects Mr. Robertson’s substantial rights, and
(4) which seriously affects the “fairness, integrity,
**5 I disagree, however, with the majority’s
or public reputation of judicial proceedings.”

Id.

(quoting
United States v. Romero, 491 F.3d
1173, 1178 (10th Cir. 2007)). The error must be “clear
or obvious.” United States v. Pablo, 696 F.3d 1280,
1290 (10th Cir. 2012). It is a high standard for the
appellant.

Garcia-Caraveo, 586 F.3d at 1232.

conclusion that the district court did not plainly err
by drawing an adverse inference from Mr. Robertson’s
silence. By holding Mr. Robertson’s silence against
him in determining facts bearing upon the severity of
his sentence, the district court committed plain error
and imposed an impermissible burden on the exercise
of his constitutional right against self-incrimination. I
would, therefore, reverse and remand for resentencing.

006a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Robertson, 946 F.3d 1168 (2020)
2020 WL 54652

As regards the first prong of plain error, Mr. Robertson
has shown that the district court erred at sentencing by
drawing an adverse inference from his silence when
determining whether Mr. Robertson pointed a gun at

not a consideration in its analysis. When, as we
see here, the defendant’s silence is a factor which
persuades the sentencing court to rely on the testimony
of other witnesses, the court commits error under

Mitchell
Officer Arias. The Supreme Court held in
that a district court commits reversible error by
drawing any “adverse inference from the defendant’s
silence” at sentencing “in determining facts about the
crime which bear upon the severity of the sentence.”

Mitchell. See
Mitchell, 526 U.S. at 319, 119
S.Ct. 1307 (finding reversible error where “ ‘[o]ne
of the things’ persuading the [district] court to rely
on the testimony of the codefendants [at sentencing]
was [the defendant’s] ‘not testifying to the contrary’
”). While the district court at other times discussed a
lack of “direct testimony” contradicting Officer Arias’s
account generally, see ROA, Vol. IV, at 166, the district
court’s focus in the above exchange was on the absence
of one specific piece of evidence—the testimony of
Mr. Robertson. See id. at 162 (“But he hadn’t testified

526 U.S. at 316–17, 330, 119 S.Ct. 1307 (emphasis
added) (concluding that the district court imposed
*1174 an impermissible burden on the exercise
of the constitutional right against compelled selfincrimination “[b]y holding [the defendant’s] silence
against her in determining the facts of the offense at the
sentencing hearing”). The majority contends that the
district court’s statements regarding Mr. Robertson’s
silence at sentencing are ambiguous, but it omits
critical portions of the sentencing transcript. The full
exchange between Mr. Robertson’s counsel and the
court was as follows:
THE COURT: I have some serious questions about
[Officer Arias], frankly. But I think his testimony is
supported in this case. I’m a little surprised that I
didn’t hear from the main player who would tell us
that, “No, I did not point a gun at Officer Arias.” I
didn’t hear that testimony.
MS. KATZE: Well, we’re here in a contested
sentencing hearing because my client is saying, as
we said throughout the objections in the sentencing
memo, that he did not point the gun at - THE COURT: But he hadn’t testified to that under
oath ... And I’ve heard other testimony under oath
that is not countered by that.
ROA, Vol. IV, at 161–62 (emphasis added).
The district court’s explicit consideration of Mr.
Robertson’s failure to testify under oath, as evidenced
by this exchange with defense counsel, makes clear
that Mr. Robertson’s silence factored into the district
court’s analysis of the “other testimony” presented
at the sentencing hearing. The district court would
not have repeatedly referenced the lack of testimony
from Mr. Robertson in analyzing Officer Arias’s
testimony if Mr. Robertson’s failure to testify was

to that under oath.”) (emphasis added). 1 The district
court’s own statements make clear that it considered
Mr. Robertson’s silence in determining whether Mr.
Robertson pointed a gun at Officer Arias.
**6 Having concluded that the district court
committed error, I next consider whether the error is
plain—that is, whether it is “clear under current law.”
United States v. Olano, 507 U.S. 725, 734, 113 S.Ct.
1770, 123 L.Ed.2d 508 (1993). “An error is clear where
‘the Supreme Court or this court [ ] [has] addressed the
issue’ or where ‘the district court’s interpretation was
clearly erroneous.’ ”

United States v. Cordery, 656

F.3d 1103, 1106 (10th Cir. 2011) (quoting
United
States v. Ruiz-Gea, 340 F.3d 1181, 1187 (10th Cir.
2003)). That is the case here.
Mitchell made clear
that a district court “may not draw [an] adverse
inference” from a defendant’s silence “in determining
*1175 facts about the crime which bear upon the
severity of the sentence.” 526 U.S. at 316–317, 119
S.Ct. 1307. Unlike the majority, I do not view the
district court’s statements regarding Mr. Robertson’s
silence to be ambiguous. As such, Mr. Robertson
has satisfied the second prong of plain error, and the
government has not argued otherwise. 2
Mr. Robertson has also satisfied the third prong of plain
error—that is, whether the error affects his “substantial
rights.” United States v. Hasan, 526 F.3d 653, 664
(10th Cir. 2008). In this analysis, “we ask only whether
there is ‘a reasonable probability that, but for the error

007a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Robertson, 946 F.3d 1168 (2020)
2020 WL 54652

claimed, the result of the proceeding would have been
different.’ ” Id. (quoting United States v. Andrews, 447
F.3d 806, 811 (10th Cir. 2006)). To satisfy this burden,
Mr. Robertson “must show a reasonable probability
sufficient to undermine confidence in the outcome at
[his] sentencing.”
United States v. Yurek, 925 F.3d
423, 446 (10th Cir. 2019). “Confidence in the outcome
can be undermined even if [Mr. Robertson’s] showing
would not satisfy the preponderance-of-the-evidence
standard.”
Id. And “[i]n light of the constitutional
nature of the error,” we must conduct this analysis less
United States v.
rigidly than we would otherwise.
Dazey, 403 F.3d 1147, 1177 (10th Cir. 2005) (applying
a less rigid approach to the third prong).
In this case, the district court’s own statements indicate
that it relied on Mr. Robertson’s silence in crediting
the testimony of Officer Arias. See
United States
v. Trujillo-Terrazas, 405 F.3d 814, 820 (10th Cir.
2005) (considering a district court’s comments at
sentencing when determining whether the plain error
prejudiced the defendant). Taking the requisite less
rigid approach appropriate to constitutional error, a
reasonable probability exists that the district court’s
factual finding would have been different had it not
relied on Mr. Robertson’s silence. 3 And if the district
court had discredited Officer Arias, its starting point
of 120 months would have been reduced by more than

one-half (46 to 57 months), or even more if the 37
to 46 month range applied. “When the court’s starting
point is skewed a ‘reasonable probability’ exists that
its final sentence is skewed too.”
United States
v. Sabillon-Umana, 772 F.3d 1328, 1333 (10th Cir.
2014); see
Yurek, 925 F.3d at 447 (finding the third
prong met where there was a reasonable probability
that the district court would have granted a mitigatingrole adjustment under the correct test, which would
have lowered the guideline range). Mr. Robertson has
satisfied the third prong of plain error.
To satisfy the fourth prong, Mr. Robertson must show
that the district court’s error “seriously affects the
fairness, integrity, or public reputation of judicial
proceedings.” United States v. Bustamante-Conchas,
850 F.3d 1130, 1144 (10th Cir. 2017) (en banc).
Where, as here, “an error affects the calculation of
a defendant’s guideline range, the fourth prong is
ordinarily satisfied when the first three prongs are
satisfied.”
Yurek, 925 F.3d at 447. I conclude
that the district court plainly erred by drawing an
adverse inference from Mr. Robertson’s silence at his
sentencing hearing. I would reverse and remand for
resentencing.
All Citations
946 F.3d 1168, 2020 WL 54652

Footnotes

1

2

1

2

The district court based the sentence upon an offense level of 27. In addition to the enhancements, the
district court applied a three-level reduction for acceptance of responsibility and reduced his criminal history
category to category IV. The guideline range for a person in category IV, level 27 who was convicted of
this crime is 100–120 months’ imprisonment (the upper bound of the range is capped at 120 months, the
statutory maximum for the crime).
We note that in

Ray, we stated that we have “left open the possibility” that an exceptional case might

exist where a heightened standard is proper.
704 F.3d at 1314. However, our caselaw predating
Ray
is clear that the issue was already settled and one panel cannot overrule another. See United States v.
Holcomb, 853 F.3d 1098, 1100 (10th Cir. 2017).
I emphasize that Mr. Robertson did not need to present any evidence whatsoever because “the burden of
proof fell on the government to trigger the enhancement.” United States v. Gonzales, 931 F.3d 1219, 1224
(10th Cir. 2019); see
Mitchell, 526 U.S. at 330, 119 S.Ct. 1307 (“[t]he Government retains the burden of
proving facts relevant to the crime at the sentencing phase and cannot enlist the defendant in this process
at the expense of the self-incrimination privilege”) (emphasis added).
The government only addresses the first prong of plain error. See Aple. Br. at 23–24.

008a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Robertson, 946 F.3d 1168 (2020)
2020 WL 54652

3

“Of course, our standard is couched in terms of probability, and we cannot say with certainty what the district
court will find on remand.” Hasan, 526 F.3d at 665.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

009a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Appellate Case: 18-2165

Document: 010110305326

Date Filed: 02/18/2020

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
UNITED STATES OF AMERICA,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

February 18, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellee,
v.

No. 18-2165
(D.C. No. 1:17-CR-02573-JAP-1)

JEREMIAS ROBERTSON,
Defendant - Appellant.
_________________________________
ORDER
_________________________________
Before BRISCOE, KELLY, and BACHARACH, Circuit Judges.
_________________________________
This matter is before the court appellant’s Petition for Panel Rehearing/Rehearing
En Banc. Upon consideration, the request for panel rehearing is denied by a majority of
the original panel members. Judge Briscoe would grant panel rehearing
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, the en banc request is
likewise denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

010a

No. ____________

In the

Supreme Court of the United States
JEREMIAS ROBERTSON, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

Certificate of Service

I, Margaret A. Katze, hereby certify that on July 16, 2020, a copy of the
petitioner’s Motion for Leave to Proceed in Forma Pauperis and Petition for
Writ of Certiorari to the United States Court of Appeals for the Tenth Circuit
were mailed postage prepaid, to the Solicitor General of the United States,
Department of Justice, Room 5614,

1

950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001, counsel for
the Respondent.
Respectfully submitted,
Stephen P. McCue
Federal Public Defender
DATED: July 16, 2020
By:

s/ Margaret A. Katze
Margaret A. Katze*
Federal Public Defender
111 Lomas Blvd., Suite 501
Albuquerque, New Mexico 87102
Telephone: (505) 346-2489
Facsimile: (505) 346-2494
Attorneys for the Petitioner
* Counsel of Record

2

